                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A13030040                                                                     Page 1 of 1



                 Our office received an allegation of plagiarism in a funded NSF proposa1. 1 Our initial
         review identified material copied from one source. The author of the source document was the
         former graduate student2 of the co-PI of the awarded proposal. Upon further analysis, another
         source document that contained the overlapping identified material was found to have been co-
         authored by the former graduate student with the PI and co-PI of the awarded proposal. Hence,
         the identified material is of shared property between the three authors and the plagiarism
         allegation is unsubstantiated. Accordingly, this case is closed with no further action taken.




NSF OIG Fonn 2 (11102)
